CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
Earned Premium Visa Signature Card
Approved Credit Limit: $5,000.00
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

17.750%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

17.750%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

17.99%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

18.00%
This APR may be applied to Your Account if You:
- Make a late payment.
How Long Will the Penalty APR Apply? If Your APRs are increased for
this reason, the Penalty APR will apply until You make six consecutive
minimum payments when due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Additional Card Fee

None
None
None
None

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee

$5.00 or 3.00% of the amount of each balance transfer, whichever is greater
None
1.00% of each transaction in U.S. dollars

- Transaction Fee for Purchases

None

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Up to $20.00
None
Up to $20.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04202655-MXC20-P-2-052318 (MXC201-E)

Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if You are 60 days late in making a payment.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at 1 (800) 232-8178 to receive oral disclosures of the Military Lending Act disclosure above and a
description of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if You are 15 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Balance Transfer Fee (Finance Charge):
$5.00 or 3.00% of the amount of each balance transfer, whichever is greater. If Your Account is subject to a Balance
Transfer Fee (finance charge), the fee will be charged to Your Account when You transfer a balance from an account of
another creditor to the Account subject to Your Agreement.
Returned Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
None.
Pay-by-Phone Fee:
$5.00. If Your Account is subject to the Pay-by-Phone Fee, except as limited by applicable law, a fee will be charged for
each time You make a payment by telephone as disclosed on this Disclosure.
PIN Replacement Fee:
None.
Rush Fee:
$35.00 second day. $55.00 overnight. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee
may be charged to Your Account for each rush Card that You request, providing that delivery of the Card is also available
by standard mail service, without paying a fee for delivery.
Statement Copy Fee:
$2.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Unreturned Card Fee:
None.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04202655-MXC20-P-2-052318 (MXC201-E)

Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
The Purchase APR is 17.750% which is a daily periodic rate of 0.0486% .
The Balance Transfer APR is 17.750% which is a daily periodic rate of 0.0486% .
The Cash Advance APR is 17.99% which is a daily periodic rate of 0.0493% .
The Penalty Rate APR is 18.00% which is a daily periodic rate of 0.0493% .
Variable Rate:
The ANNUAL PERCENTAGE RATE may increase in the future. The ANNUAL PERCENTAGE RATE is subject to change
on the first day of the billing cycle quarterly to reflect any change in the Index and will be determined by the Prime Rate on
2nd Tuesday of each calendar quarter; January, April July & October, to which We add a margin. The ANNUAL
PERCENTAGE RATE will never be greater than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will result in
an increase in the amount of the interest You will pay, may increase Your minimum payment, and may increase the
number of payments to pay off Your balance. If the Index is no longer available, the Credit Union will choose a new index
which is based upon comparable information.
Margin:
Purchases will be charged at 12.500% above the Index.
Balance Transfers will be charged at 12.500% above the Index.
Cash Advances will be charged at 12.500% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04202655-MXC20-P-2-052318 (MXC201-E)

Save

